OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/ECUADOR’S
DEMOCRACY AND
GOVERNANCE ACTIVITIES
AUDIT REPORT NO. 1-518-07-003-P
DECEMBER 14, 2006




SAN SALVADOR, EL SALVADOR
                Office of Inspector General



December 14, 2006


MEMORANDUM

TO:                 USAID/Ecuador Director, Alexandria Panehal

FROM:               RIG/San Salvador, Timothy E. Cox /s/

SUBJECT:            Audit of USAID/Ecuador’s Democracy and Governance Activities (Report No.
                    1-518-07-003-P)


This memorandum transmits our final report on the subject audit. In finalizing the report, we
carefully considered your comments and have included your comments in Appendix II.

The report includes two recommendations for USAID/Ecuador’s action. Management decisions
for these recommendations can be recorded when we and USAID/Ecuador agree on a firm plan
of action with target dates for implementing the recommendations. The Audit Performance and
Compliance Division (M/CFO/APC) will record final action on the recommendations when
planned actions have been completed. In this regard, please notify my office within 30 days of
the actions planned or taken by USAID/Ecuador to address the recommendation.

I appreciate the cooperation and courtesy extended to my staff throughout the audit.




U.S. Agency for International Development
Regional Inspector General/San Salvador
Unit 3110; APO AA 34023
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

     Audit Objectives .......................................................................................................... 2

Audit Findings ................................................................................................................. 3

Did USAID/Ecuador’s democracy and governance activities achieve
planned results?................................................................................................................ 3

     Performance Indicators Should Reflect Actual
     Assistance................................................................................................................... 6

     Mission Should Sign a Strategic Objective Agreement
     With the Government of Ecuador................................................................................ 7

Did USAID/Ecuador’s reporting on democracy and governance activities
provide stakeholders with complete and accurate information on the
progress of the activities and the results achieved? ......................................................... 9

Evaluation of Management Comments ....................................................................... 10

Appendix I – Scope and Methodology ........................................................................ 11

Appendix II – Management Comments ....................................................................... 13
SUMMARY OF RESULTS
Ecuador is an important partner for the United States in terms of trade and the fight
against narcotics trafficking. Since 1996, the political history of Ecuador has been
characterized by instability. USAID/Ecuador has implemented numerous democracy
and governance activities under its democracy and governance strategic objective plan
since 2001. There are a large number of USAID/Ecuador-funded organizations
implementing democracy and governance activities in the areas of justice,
decentralization, anti-corruption, elections, and trafficking in persons. The Mission’s
activities in the areas of local government, municipal development and local economic
development are designed to enhance the capacity of local governments to improve
service delivery, develop transparent financial planning and management strategies, and
provide forums for citizens to actively participate in local decision-making. Since fiscal
year (FY) 2001, USAID/Ecuador has spent over $34.4 million to implement democracy
and governance activities under its strategic objective to increase support for the
democratic system. (See page 2.)

The Regional Inspector General/San Salvador, as part of its fiscal year 2007 audit plan,
performed this audit to determine whether USAID/Ecuador’s democracy and governance
activities achieved planned results and whether USAID/Ecuador’s reporting on
democracy and governance activities provides stakeholders with complete and accurate
information on the progress of the activities and the results achieved. (See page 3.)

USAID/Ecuador’s democracy and governance activities did not achieve all planned
results: of 12 performance targets established in the Performance Management Plan
(PMP), 5 were met, 1 was nearly met, 1 was partially met and 5 were not met. (See
page 3.) USAID/Ecuador’s reporting provided stakeholders with complete and accurate
information on the progress of democracy and governance activities and the results
achieved. However, the Mission needs to better define indicators and choose those
performance indicators where the Mission activities directly influence the achievement of
targets. (See pages 6 through 8.) In addition, the Mission would be better able to
achieve its objectives if the Mission could find suitable partners to sign a Strategic
Objective Agreement (SOAG) with the Government of Ecuador. (See page 7.)

The report includes two recommendations that USAID/Ecuador: 1) update its democracy
and governance program performance indicators with indicators that are clearly defined
and written and include only those indicators that the Mission can materially affect
though its activities and, 2) negotiate a SOAG with the Government of Ecuador to assist
in implementing the democracy and governance program. (See pages 8 and 9.)

Overall, USAID/Ecuador found the recommendations in the report to be positive and
relevant, although the Mission has not yet reached firm decisions on how to address the
recommendations.




                                                                                        1
BACKGROUND
Ecuador is an important partner in terms of trade and the fight against narcotics
trafficking. Since 1996, the political history of Ecuador has been characterized by
instability. The latest crisis in Ecuador arose after former President Gutiérrez dissolved
the Supreme Court, leading to protests and his ouster. President Gutiérrez was the third
president to leave office prematurely in eight years. Since no presidential candidate won
an outright victory in Ecuador’s October 15, 2006 election, there will be a November 26
runoff vote to determine the next president.

USAID/Ecuador has been implementing numerous democracy and governance activities
under its democracy and governance strategic objective plan starting in 2001. A large
number of USAID/Ecuador-funded organizations are implementing democracy and
governance activities in the areas of justice, decentralization, anti-corruption, elections,
and trafficking in persons. The Mission’s activities in the areas of local government,
municipal development and local economic development are designed to enhance the
capacity of local governments to improve service delivery, develop transparent financial
planning and management strategies, and provide forums for citizens to actively
participate in local decision-making. Since FY 2001, USAID/Ecuador has spent over
$34.4 million to implement democracy and governance activities under its strategic
objective to increase support for the democratic system.

According to USAID guidance, missions need well-designed performance indicators to
effectively monitor activity progress and to measure and compare actual results against
expected results. ADS Chapter 203 provides guidance on how operating units should
assess whether activities are actually achieving the intended results. Specifically, it
requires missions to develop and maintain a Performance Management Plan (PMP) that
includes at least one broad performance indicator to measure progress towards each
strategic objective and at least one intermediate result performance indicator under each
strategic objective to measure progress towards essential intermediate steps. These
indicators should provide useful information about the program’s progress toward
achieving intended results.

AUDIT OBJECTIVES
As part of its fiscal year 2007 audit plan, the Regional Inspector General/San Salvador
performed this audit to answer the following questions:

•      Did USAID/Ecuador’s democracy and governance activities achieve planned
       results?

•      Did USAID/Ecuador’s reporting on democracy and governance activities provide
       stakeholders with complete and accurate information on the progress of the
       activities and the results achieved?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                          2
AUDIT FINDINGS
Did USAID/Ecuador’s democracy and governance activities
achieve planned results?
USAID/Ecuador’s democracy and governance activities did not achieve all planned
results: of 12 performance targets established in the Performance Management Plan
(PMP), 5 were met, 1 was nearly met, 1 was partially met (see target 5 below) and 5
were not met. Reasons why targets were not met varied. For example, two
performance targets were not met because of political instability. For another two
indicators, targets were not met because USAID’s activities were too limited in scope to
influence the planned result. For the remaining indicators we could not readily
determine why targets were not met. See the PMP planned targets and actual results
below.

                Comparison of Planned and Actual Performance Results

        Performance Indicators                           Year 1      Plan     Actual    Met

        (a) Sample polled who are satisfied with         2006        61%      57.5%      No
        municipal services
    1   (b) Sample polled who trust in municipal
        government                                                   53%      47.3%      No
        Sample polled who believe that justice           2006       29.4%     24.6%      No
        system would punish a person who robbed
    2
        or assaulted them and who believe that
        courts guarantee justice
        Sample polled who believe that payment of        2006        71%       86%       No
    3   bribes to public officials is very or
        somewhat common
        Representative sample of citizens in             2004       54.1%     53.4%      No
        USAID-assisted municipalities expressing:       (latest
    4   (a) satisfaction with improvements in            data
        municipal services and                         available)
        (b) trust in municipal government                           46.1%      44%      No
        (a) Implementation of new Code of                2005        Yes        No      No2
        Criminal Procedures (CCP) achieved              (latest
    5   (b) Percent of justice personnel subgroups       data
        given advanced training                        available)    95%       97%      Yes




1
    Some indicators were measured every two years and for some FY 2006 indicators final data
    was not available. Therefore, all data presented is the latest available for review.
2
    According to USAID/Ecuador, several preliminary steps, including development of a proposed
    new code of criminal procedures, were accomplished in 2003. However, the code has not
    been passed by Congress or implemented.


                                                                                              3
         Performance Indicators                           Year 3       Plan     Actual     Met
         Number of USAID-supported                         2005         27        28       Yes
    6    municipalities where citizen groups are       (latest data
         overseeing targeted services                   available)
                                                           2005         Yes       Yes     Yes 4
         Justice Coalition is effectively lobbying
    7                                                  (latest data
         for Justice Reform
                                                        available)
                                                           2005         Yes       No       No 5
         President of Supreme Court maintains          (latest data
    8
         independence                                   available)

         Number of USAID-aided municipalities             2006          30        43       Yes
         implementing or improving at least one
    9
         service chosen with broad citizen input,
         including marginalized
         Increased number of people, especially            2005        1,500     1,329     No
         from vulnerable groups, receiving             (latest data
    10   defense services from legal services           available)
         providers that have been strengthened
         by USAID-funded assistance
         Number of USAID-aided municipalities             2006          40        49       Yes
         that carry out a participatory process in
    11   the selection, implementation, and
         monitoring of the service targeted for
         delivery or improvement
         Participacion Ciudadana issues formal             2004       Report    Report     Yes
         judgment about freeness and fairness of       (latest data   issued    issued
    12
         2004, and 2006 elections                       available)


The mission achieved its planned results for five indicators, including three planned
results pertaining to work with municipalities. The mission assisted 28 municipalities
where citizen groups are overseeing targeted services (planned target of 27); assisted
43 municipalities implementing or improving at least one service chosen with broad
citizen input (planned target of 30); and assisted 49 municipalities that carry out a
participatory process in the selection, implementation, and monitoring of the service
targeted for delivery or improvement (planned target of 40).




3
    Some indicators were measured every two years and for some FY 2006 indicators, final data
    was not available. Therefore, all data presented is the latest available for review.
4
    We accepted this indicator as being met even though the indicator was not clearly written. The
    Mission provided substantial assistance in the transparent selection of new Supreme Court
    judges.
5
    This indicator was clearly not met because the Supreme Court had been abolished. However,
    we still consider it an indicator that could be more clearly defined.


                                                                                                  4
                                                               Photo taken by an OIG auditor
                                                               on September 26, 2006 of the
                                                               Otavalo municipal computer
                                                               center which was a recipient of
                                                               USAID technical assistance.
                                                               The assistance was provided
                                                               with the goal of providing the
                                                               community with information on
                                                               the municipal budget and
                                                               expenditures.

However, some examples of recent political instability that affected program results are:

   •   Three presidents removed from office in eight years.

   •   Transparency International ranking of Ecuador 138 out of 163 countries in its
       2006 Corruption Perception Index.

   •   The dismissal of the Supreme Court.

   •   Delay in appointing a Civic Corruption Control Commission (mandated by the
       Constitution) and later expulsion of two new appointees because of ethical
       conduct which damaged its credibility.

   •   The need to refocus the Mission’s anticorruption program from working at the
       federal level to working through civic organizations.

The reason the Mission did not fully achieve two of its targets (for Indicator 5, which was
partially met, and for Indicator 8) was because of recent political instability. For
example, the partner working with Congress to achieve the indicator to implement a new
Code of Criminal Procedures (CCP) cited the removal of the President of Ecuador as an
obstacle to meeting its goal since the Congress was preoccupied with the upcoming
presidential election. This partner stated that the law was well supported in Congress,
but because the Congress was preoccupied with the upcoming election, the law would
likely not be considered until after the new Congress is sworn in during January 2007.
Another indicator that the president of Supreme Court maintains independence could not
be achieved because President Gutiérrez dissolved the Supreme Court in 2005.

The Mission did not achieve another two targets (Indicators 2 and 3) because USAID’s
activities were too limited in scope to influence the planned result. These indicators did
not directly measure the desired impact or result and in some cases were beyond the
Mission’s manageable interest and control.




                                                                                             5
While political stability can greatly affect the accomplishment of democracy and
governance goals, we noted that the indicators must be clearly defined to measure
progress and correlate with Mission activities. In addition, without the formal support
and commitment of the Government of Ecuador (GOE), the Mission’s democracy and
governance program goals are less likely to be achieved and sustained. These concerns
are discussed below in detail.

Performance Indicators Should
Reflect Actual Assistance

 Summary: According to ADS guidance, performance indicators should be precisely
 defined in the PMP, and should measure changes that are clearly and reasonably
 attributable, at least in part, to USAID efforts. Of the 12 performance indicators
 reviewed, 2 indicators were not clearly defined and for another 2 indicators the
 Mission’s activities were too limited in scope to influence the planned result. This
 occurred because political conditions changed which required a change in democracy
 and governance activities. As a result, measurements were based on results at the
 national level though the Mission’s activities were conducted primarily at select state
 and local levels. Consequently, it is difficult to ascertain if results were actually
 achieved if indicators are not clearly written and the Mission could not achieve the
 performance indicators when the Mission activities did not directly influence the
 achievement of targets.

According to ADS 203.3, performance indicators should be (1) precisely defined in the
PMP, and (2) should measure changes that are clearly and reasonably attributable, at
least in part, to USAID efforts. Other guidance states that the development of program
objectives is the first step in developing a performance monitoring plan, and good
objectives are necessary for good performance monitoring and measurement. A good
objective is one that is specific, so that it cannot be interpreted in different ways, and is
manageable, in that it can be materially affected by USAID assistance.

Of the 12 performance indicators reviewed in the original PMP, we concluded that 2
indicators were not specific and clearly defined and another 2 indicators were beyond
the Mission’s control because USAID’s activities were too limited in scope to influence
the planned result. The indicators are:

       1. Justice Coalition is effectively lobbying for justice reform.

       2. President of Supreme Court maintains independence.

       3. Sample polled who believe that justice system would punish a person who
          robbed or assaulted them and who believe that courts guarantee justice.

       4. Sample polled who believe that payment of bribes to public officials is very or
          somewhat common.

For the first two listed indicators, we were unable to determine exactly how the Mission
would know when its targets were achieved. For example, the Mission needed to better
define its definition on what is considered “effectively lobbying” in addition to having a


                                                                                           6
more detailed definition or criteria on how the Mission will determine if the President of
Supreme Court maintains independence. The wording of the objective is important
because it defines that which is to be achieved and, therefore, to be measured. If the
objectives are vague or unrealistic, accurate and meaningful, measurement will be
difficult at best. Therefore, the objective “President of Supreme Court maintains
independence” is vague because “independence” was not defined. For example,
independence might mean freedom from central government interference, or it might
mean integrity and incorruptibility, or it might mean both. Therefore, it was difficult to
ascertain if the results were actually achieved.

For the second two listed indicators, the Mission chose measurements based on
national representative samples even though the Mission’s activities were conducted
primarily at select state and local levels. While the Mission had activities under the
indicator to work in the justice sectors, most of its effort was at select local communities.
The fourth indicator to sample the level of corruption was at one time a valid indicator
because the Mission had envisioned an anticorruption program at the national level but
GOE support was withdrawn before the program even began. During January 2003,
prior to the partner’s start-up, GOE President Lucio Gutiérrez was elected on the
platform of anti-corruption. Subsequently, the GOE had announced a major anti-
corruption effort called the Ecuadorian Anti-Corruption System (Sistema Anti-Corrupción
Ecuatoriano – SAE). Based in part on this turn of events, USAID/Ecuador funded an
anti-corruption effort. The Mission’s partner thought there was a very good chance of
success given that the President was pushing SAE. However, even before the partner
could begin its activities the executive branch abandoned the SAE. Thus, since the
partner could no longer find support at the national level, the anticorruption effort was
redirected through citizen groups. The Mission should have changed the indicator
measurement from a national measurement to one that reflected the citizen groups’
activities. Consequently, the Mission did not achieve these performance indicators
because the planned activities were unsuccessful and the indicators were outside the
Mission’s actual influence.

To improve the accuracy of reporting on the democracy and governance program, we
are making the following recommendation:

   Recommendation No 1: We recommend that USAID/Ecuador (a) update its
   democracy and governance program performance indicators with indicators that
   are clearly defined and written, and (b) include only those indicators that the
   Mission can materially affect though its activities.

Mission Should Sign a Strategic
Objective Agreement with the
Government of Ecuador
Summary: According to ADS guidance, a Strategic Objective Grant Agreement (SOAG)
with the Government is the principal bilateral grant agreement used by USAID.
However, the Mission does not have a SOAG with the Government of Ecuador (GOE)
for its democracy and governance activities. The reason the Mission has not signed a
SOAG with the GOE is because of the difficulty finding suitable partners at the national
level, complicated by political instability and frequent turnover of personnel heading GOE
ministries. Without the formal support and commitment of the GOE, the Mission’s


                                                                                           7
democracy and governance program goals are less likely to be achieved and sustained.

According to ADS 350.3.1, the SOAG is the principal bilateral grant agreement used by
USAID. Additionally, ADS 350.2 states that bureaus and operating units are responsible
for preparing, negotiating, signing, and implementing bilateral grants in furtherance of
their strategic plans.

However, the Mission does not have an agreement with the GOE. A SOAG with the
GOE is even more critical now that the Mission has developed a new strategy for 2007
and 2008. This strategy is in support of the U.S. foreign policy goal of democracy and
human rights and the U.S. FY 2008 Mission Performance Plan goal of “focused
assistance to strengthen democratic stability and institutions.” The Mission’s highest
priority new strategic objective — “More Effective, Democratic, and Transparent
Governance,” — plans to build upon the results already achieved under the previous
USAID strategy at the national and local levels. One objective is to help build the
capacity of key national institutions including Congress, the executive branch, the
Judiciary, and the Electoral Tribunal. Working with these national level institutions should
improve their performance and lead to an increase in citizen confidence in these same
institutions. USAID would also work with ministries in the executive branch, particularly
the, to continue the process of transferring resources and responsibilities from the
central government to municipalities.

The reason the Mission has not signed a SOAG with the GOE is because of the difficulty
in finding suitable partners, complicated by political instability and frequent turnover of
personnel heading GOE Ministries. According to Mission officials, this issue had been
discussed over the years, but the Mission has had difficulty finding suitable partners at
the national level. The difficulty in identifying suitable partners is in turn due to political
instability, frequent turnover of people and parties in power, lack of political will, and
weak government institutions.

Nevertheless, Mission officials acknowledged the importance of agreements with the
host country, that ideally the program should have a SOAG, and that it might be helpful
to enter into a SOAG with the GOE. Mission officials mentioned some possible partners
such as Consejo Nacional de Modernización (CONAM), the Ministry of Finance and the
Economy to assist in decentralization objectives, the Supreme Court regarding justice
reform, and the Electoral Tribunal Supreme pertaining to election reform, among others.
Although all entities have their limitations and weaknesses, Mission democracy and
governance officials indicated that they could envision working with them and that at
least some of the entities have some individuals that appear to be committed to reform.

Without the formal support and commitment of the GOE, the Mission’s democracy and
governance program goals are less likely to be achieved and sustained. For example,
the program has expended over $10 million to build local governments’ capacity,
institute democratic processes, and promote decentralization efforts to move more
resources and authority from the national ministries to the local governments. However,
a major constraint of these activities has been that the central government has not
provided the budgetary resources and authority needed for decentralization to take
place. To attain the decentralization objectives, it will be necessary to work with and
obtain support from the Ministry of Finance and the Economy and CONAM—which are
responsible for transferring resources and responsibilities from the central governments
to municipalities. Furthermore, the process of entering into a SOAG could help build a


                                                                                             8
democratic consensus among the various GOE entities—a major constraint identified in
a recent assessment of the program. Because no SOAG currently exists, the Mission
does not have a partner(s) within the GOE in setting and carrying out democracy and
governance program activities. The process of negotiating and signing a SOAG could
help the Mission assess the support of the GOE and help identify which activities the
GOE is currently interested in and thus willing to support. Without the formal support
and commitment of the GOE, the Mission’s democracy and governance program goals
are less likely to be achieved and sustained.

To improve the implementation of the democracy and governance program, we are
making the following recommendation:

   Recommendation No 2: We recommend that USAID/Ecuador develop an action
   plan with targets and timeframes to negotiate a Strategic Objective Grant
   Agreement with national level parties to assist in implementing the democracy
   and governance program.

Did USAID/Ecuador’s reporting on democracy and governance
activities provide stakeholders with complete and accurate
information on the progress of the activities and the results
achieved?
USAID/Ecuador’s reporting on democracy and governance activities provided
stakeholders with complete and accurate information on the progress of the activities
and the results achieved. We confirmed the results for 12 democracy and governance
program activities and found no exceptions. With regards to the performance indicators
in the PMP the results reported for fiscal year 2005, and the reported data for fiscal
years 2006, the Mission’s data was accurate and was readily verified by source
documents.         The SO-level results utilized surveys and analyses, which were
professionally completed following clear and appropriate methodology. Furthermore,
select data derived from implementing partner reports were verified as complete and
accurate through a review of implementer submissions, source documents, and auditor
site visits to a limited number of participating cities.

Concerning the performance indicators for the democracy and governance program that
were reported in the Mission’s annual report showing results for fiscal year 2005, we
found that the information presented was accurately reported. The Mission reported
results in its annual report that was directly related to its activities. In other words,
indicators that the Mission included were directly attributable to Mission activities. The
narrative information in the annual report matched the information collected from
interviews and site visits.




                                                                                        9
EVALUATION OF
MANAGEMENT COMMENTS
Overall, USAID/Ecuador found the recommendations in the report to be positive and
relevant, although the Mission has not yet reached firm decisions on how to address the
recommendations.

With respect to the first audit recommendation, USAID/Ecuador thought that it might be
inappropriate to change performance indicators so near the end of its current strategy
and so tentatively planned to implement the recommendation as part of its new
democracy and governance strategy beginning in 2007.              In a subsequent
communication, the Mission indicated that, subject to Washington approval, it had
selected three new indicators for civil society activities.

Regarding the second recommendation, USAID/Ecuador agreed that a SOAG should be
considered as a possibility once the new Correa administration is in place. However, no
firm decisions have been made. In a subsequent communication, the Mission
suggested that the recommendation be made less specific and simply state that
USAID/Ecuador should explore the possibility of signing a SOAG with the incoming
Correa administration. We prefer not to make recommendations that are not specific
about the action to be taken; however, the Mission, in the process of deciding what
action to take on the recommendation, can either choose to implement it or set forth
grounds for not implementing it.

Management decisions on both audit recommendations can be recorded once
USAID/Ecuador and we have agreed on a firm plan of action with target dates for
addressing the recommendations, or when USAID/Ecuador has set forth grounds for not
implementing the recommendations.




                                                                                    10
                                                                             APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/San Salvador conducted this audit in accordance with
generally accepted government auditing standards. The purpose of the audit was to
determine whether USAID/Ecuador’s democracy and governance activities achieved
planned results and whether USAID/Ecuador’s reporting on democracy and governance
activities provided stakeholders with complete and accurate information on the progress
of the activities and the results achieved.

In planning and performing the audit, we assessed management controls related to the
development, implementation, use and management review of performance measures
and indicators. Specifically, we reviewed (1) the Mission’s results reported in its annual
report for fiscal year 2005, (2) the Performance Management Plan for FY 2006, (3) ADS
requirements related to performance measures, (4) data quality assessment procedures
and results, (5) Federal Manager’s Financial Integrity Act submission, and (6) the
democracy and governance portfolio review. We also evaluated all of the Mission’s
current 12 performance indicators for democracy and governance activities as well as
the performance data collected and reported under these indicators as of September 30,
2006.

The audit was conducted at the offices of USAID/Ecuador and at various implementing
partner site locations in Quito. To further verify results, we also visited six additional
cities in Ecuador that had participated in USAID-sponsored Governance activities. The
audit was conducted from September 18 through October 5, 2006.

Methodology
To answer the audit objectives, we first obtained from the Mission its democracy and
governance Performance Management Plan.             We also obtained the Mission’s
agreements and the names of the CTOs assigned to each of the implementers. We
then obtained agreements and contracts to determine work plan indicators and
compared them to the democracy and governance Performance Management Plan.

To answer the audit objective about whether USAID/Ecuador’s democracy and
governance activities achieve planned results, we first reviewed the Mission’s
democracy and governance Performance Management Plan. We interviewed CTOs,
implementing partners and Mission managers regarding their roles in developing and
maintaining performance indicators and related performance data. We also tested
various management controls relevant to performance indicators—including the
Performance Management Plan, data quality assessment procedures and results for all
active indicators, the FMFIA review process, and the portfolio review process—and
evaluated the effectiveness of these controls.

We then evaluated the Mission’s compliance with relevant Agency polices, including
ADS 350 and ADS 203, including the requirements to develop and maintain useful
performance indicators. Furthermore, we tested a judgmental sample of indicator results



                                                                                       11
                                                                             APPENDIX I


submitted by contractors and implementing partners for FYs 2005 and 2006 to verify the
Mission’s data for reported project performance. Finally, our testing included site visits
to seven Ecuadorian cities to verify reported performance results for selected indicators.

To answer the audit objective about whether USAID/Ecuador’s reporting on democracy
and governance provided stakeholders with complete and accurate information on the
progress of the activities and the results achieved we compared the information
gathered from implementers’ progress reports and our site visits to the Mission’s reports
to stakeholders.

In planning the audit, we considered that exceptions to the accuracy of data reported in
the Mission’s Performance Management Plan of 10 percent or more of any one indicator
reviewed would be considered significant and therefore reportable.




                                                                                       12
                                                                                       APPENDIX II



MANAGEMENT COMMENTS
TO:              Timothy Cox, RIG/San Salvador

FROM:            Alexandria L. Panehal, Mission Director

DATE:            November 17, 2006

SUBJECT:    Mission Response to Draft Program Audit of USAID/Ecuador´s
Democracy and Governance Activities (Audit Report No. 1-518-07-XXX-P)

I am pleased to submit USAID/Ecuador’s formal response to the draft report you transmitted to us
on October 27, 2006. First of all, I would like to compliment the auditors who participated in the
process for their objectivity and understanding of the challenges for implementing a democracy
program in the Ecuadorian context. Overall, we find the findings and recommendations made by
the R/IG positive, very constructive, and relevant for our new strategy. With this in mind, we
would like to provide several additional comments and reactions for your consideration for
incorporation into the final report.

Indicators: Regarding the nature of the indicators we have in the PMP, the assessment is
essentially accurate. The audit recommendation in this regard effectively complements those of
the Data Quality Assessment. We would like to address this issue by acknowledging the
recommendation and using it to develop the new performance indicators under the new strategy
for FY2007-FY2009. However, these recommendations raise the question of whether the
Democracy and Governance SO should change the performance indicators this close to the end
of the current strategy. Appropriate changes to the current PMP would include the dropping of
some of the indicators that are vague or beyond our program management capability. Since we
are not doing another DVS in 2007, we shall not be reporting on the indicators tied to it, which will
limit indicators against which national-level impact can be measured. Furthermore, the new
Operational Plan requires us to select from a menu of indicators, and this requirement will help
define how we measure impact.

SOAG Recommendation: As stated in the draft audit report the Mission has considered the
SOAG option several times in the past but—due to the lack of good governance, political
instability, weak public institutions and lack of consensus—the Mission has not been able to find
suitable SOAG partners in the Government of Ecuador (GOE). Nevertheless, we agree with the
proposal for an action plan to explore the possibility of a DG SOAG, once the new Government is
in place. We must bear in mind, however, that the time frame for that is tight, since we would
only have from late January until September 30, 2007, to accomplish this. Moreover, we may
find, once again, that either the Government of Ecuador (GOE) will have other priorities than
those we want to assume or, for other political reasons, a SOAG is not yet feasible. Should that
be the case, we need to have a Plan B and be able to explain it. This situation will critically affect
our FY2007 Procurement Plan, since we are going to have to know whether we obligate into a
SOAG or other separate instruments, sooner rather than later. Since our bridge projects and
other leftovers from the current SO12 Strategy end September 30, 2007, we would not have the
luxury of waiting until after September 30 to do the sub-obligations under a hypothetical SOAG, if
we want continuity in our program. Additionally, if we are going to combine DG and NB local
governance activities into a single instrument, we are going to have to be creative in structuring
that program so that it responds to two separate SOAGs. This means we have a lot of work
ahead of us before the end of the current fiscal year. The other option is to sign a SOAG with the
Ministry of Foreign Affairs and state in the program description that the implementation of the
activities will be undertaken by contractors.




                                                                                                   13
                                                                                          Appendix II


Clarifications:

     1. On page 1, regarding why the Mission did not meet the target for the indicator:
        “Implementation of the new CCP achieved”—we would like to suggest that the report
        reflect a comment along the lines of the following sentence: “This partner stated that the
        law was well supported in Congress, however, because the Congress was preoccupied
        with the upcoming election, the law would likely not be considered until after the new
        Congress is sworn in, January 2007”. In other words, without the law, implementation
        was impossible. The same comment applies to the Background section, p. 3, second
        paragraph.
     2. Audit Findings Section, p. 4: The sentence “USAID/Ecuador’s democracy and
        governance (DG) activities did not achieve planned results:…” should read:
        “USAID/Ecuador’s democracy and governance (DG) activities did not achieve all planned
        results:…”
     3. Same Section and page: The table of planned and actual performance results, item 5
        does not accurately reflect the specific measures that the Mission had set for 2005: “(v)
        CPC reforms passed, (vi) Reformed CPC evaluated.” As stated in the audit report, this
        would imply that the Mission had not met other benchmarks established including: “(i)
        inter-institutional committee coordinating implementation of the CPC is functioning, (ii)
        textual and rapid appraisal CPC diagnostic completed, and (iii) results of diagnostic
        disseminated to policymakers.”
     4. p. 5, The 2006 Tranparency International ranking of Ecuador is 138 out of 145 countries,
        below the 2005 rank of 112. (http://icgg.org/corruption.cpi_2006_data.html)
     5. p. 5, the last complete sentence should read: “…the removal of the Supreme Court
        President as an obstacle to meeting its goal.” We need to avoid confusion with the
        removal of the President of Ecuador.

In an e-mail dated December 12, 2006, USAID/Ecuador provided additional information which it
requested be included in the Management comments section of the audit report:

We would like to provide updated 2006 data on the selected performance results listed on page 4
of the draft report (Table Comparison of Planned and Actual Performance Results). We would
like to ask you also to incorporate this information into the Management Comments section, if not
the body of the report.

      Performance Indicators
                                                          Year             Plan       Actual    Met
      (a) Implementation of new Code of Criminal                           Yes        No        No
      Procedures (CCP) achieved                           2005
 5                                                        (latest data
      (b) Percent of justice personnel subgroups          available)       95%        97%       Yes
      given advanced training

The Mission met four of the six sub-results of indicator (a). In 2003, the Mission achieved: (i) the
establishment and functioning of the Inter-institutional committee coordinating implementation of
the CPC (Criminal Procedures Code); (ii) diagnostic of the implementation of the CPC; (iii) results
of the diagnostic disseminated to policymakers; and (iv) reforms to the new CPC formulated and
proposed to Congress. The two sub-results that have not been accomplished as of 2006 are: (v)
passage of reforms to the CPC; and (vi) reformed CPC evaluated. The most severe national
political and judicial crisis in 2005, and the national Presidential and Legislative elections in 2006,
are major causes for the GOE’s not having advanced proposed reforms. Despite this situation,
advances in implementation have been achieved, especially at the local level, with the Mission’s
support.




                                                                                                      14
                                                                                              Appendix II



       Performance Indicators                               Year              Plan       Actual    Met

                                                            2005              Yes        No        No
       President of Supreme Court maintains                 (latest data
  8
       independence                                         unavailable)


This indicator was formulated as a contextual condition for the implementation of justice
programs. Data for 2005 is accurate since the Supreme Court was dissolved in December 2004
and, until the end of CY 2005, Ecuador did not have a Supreme Court of Justice. In practice, this
indicator was not applicable in 2005.

The Mission sees independence on two fronts: ‘External’ independence in terms of lack of
interference on the part of other branches of government—as well as private and public economic
and political group—in the Court’s decisions; and ‘internal’ in terms of interference by
organizations and individuals within the judiciary to block or modify Supreme Court decisions.

In 2006, however, we believe the Supreme Court of Justice demonstrated its internal
independence. Actions by the Court in 2006 include: (a) Decision to re-organize the judiciary by
enforcing official completion periods of judges and other judicial employees; this will require a
process to be implemented by phases; (b) Removal of two members of the National Judicial
Council for not advancing the re-organization of the judiciary; (c) Removal of the former president
of the Federation of Judicial Employees who had major informal control and power over justice
decisions; and (d) Removal of three of the thirty-one Supreme Court Magistrates who were
accused of being involved in a corruption scandal. Based on improved performance in 2006, the
Mission believes that the 2006 target of judicial independence has been met.

In addition, the Constitutional Tribunal and the Congress have made public their support in terms
of defending the constitutionality and legitimacy of the new Court.


        Performance Indicators                              Year              Plan       Actual    Met

        Increased number of people, especially from         2005              1,500      1329      No
        vulnerable groups, receiving defense                (latest data
  10    services from legal service providers that          unavailable)
        have been strengthened by USAID-funded
        assistance

The target for CY 2006 is 2,010 persons defended. The Mission’s implementing partner has
indicated that, through September 2006, preliminary data shows they have reached 70% of the
planned target for the entire year, indicating that it is likely they will meet their beneficiary target
for calendar year 2006.


        Performance Indicators                             Year              Plan       Actual      Met
        Participacion Ciudadana issues formal              2004              Report     Report      Yes
        judgment about freeness and fairness of            (latest data      issued     issued
 12
        2004 and 2006 elections                            unavailable)


In October and November 2006, Participacion Ciudadana observed the National Elections and
issued a report documenting its judgment on the electoral process. In addition, it is worth noting
that USAID’s partner was praised by media outlets for its exemplary role throughout the electoral


                                                                                                         15
                                                                                       Appendix II


process. Participacion Ciudadana was able to develop a national citizen campaign to promote
responsible and informed voting; monitored campaign spending in the national media outlets;
implemented a national survey on satisfaction with the electoral process and other aspects
including citizens’ criteria to choose their candidate; established an electronic news system linked
to major international media outlets; observed the elections nationwide through the participation
of over 3,000 volunteers; and developed a quick count in the first and second rounds with a level
of precision of a +/-0.08% margin of error against the official results reported by the Supreme
Electoral Tribunal.




                                                                                                 16
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
